Supreme Court, U.S.
FILED

WAIVE

SEP 2 1. 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
NO.

21-301

Mario Lamont Sims

Bank of New York Mellon, as Trustee, et a

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
1 only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

C)

The Bank Of New York Mellon f/k/a The Bank Of New York, As Trustee For The Certificateholders Of The
CWABS, Inc., Asset-Backed Certificates, Series 2005-BC5

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

9/21/21

Date:

(Type or print) Name Nathan H. Blaske
0 Mr.

0 Ms.

0 Mrs.

Firm

Dinsmore & Shohl LLP

Address

255 East Fifth Street, Suite 1900

City & State

Cincinnati, Ohio

Phone

(513) 977-8200

0

Miss

Zip 45202
Email nathan.blaske@dinsmore.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Mario Lamont Sims, Pro Se
cc:

RECEIVED
RECEIVE[
SEP 2 3 2021
U.S.

